HHS/OIG, Audit -"Medicaid Payments For School-Based Health Services Haverhill, Massachusetts - July 1999 Through June 2000,"(A-01-02-00007)
Department
of Health and Human Services
"Medicaid Payments For School-Based Health Services Haverhill, Massachusetts - July 1999 Through June 2000," (A-01-02-00007)
December 2, 2002
Complete
Text of Report is available in PDF format (838 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether costs claimed for school-based health services by the Haverhill Public
Schools through the Commonwealth of Massachusetts were reasonable, allowable and adequately supported in accordance with
the terms of the state Medicaid plan and applicable federal regulations. The audit period included Medicaid payments made
during the period July 1, 1999 through June 30, 2000.
We found that, based on reviewing randomly selected months of payments, the Haverhill Public Schools inappropriately claimed
the cost of school-based health services when providers did not have required qualifications, documentation was inadequate
and/or students were absent. As a result, we estimate that the Haverhill Public Schools were overpaid at least $81,902.  We
recommended that Haverhill Public Schools:  (1) develop and/or improve procedures to ensure that all health services
are rendered by Medicaid eligible providers, service providers document all health services delivered, and Medicaid billings
are based on accurate attendance records that support the students' presence to receive services; and (2) refund amounts
that were inappropriately paid by the Medicaid program.  Haverhill Public Schools officials disagreed with the findings
and recommendations regarding provider qualifications and documentation of services. They agreed with the finding and recommendation
regarding the student absence.